<html>
<title> - THE STATE DEPARTMENT'S COUNTERTERRORISM OFFICE: BUDGET, REORGANIZATION, POLICIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
THE STATE DEPARTMENT'S COUNTERTERRORISM OFFICE: BUDGET, REORGANIZATION, 
                                POLICIES

=======================================================================



                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2011

                               __________

                           Serial No. 112-12

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______





                  U.S. GOVERNMENT PRINTING OFFICE
65-798                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                 EDWARD R. ROYCE, California, Chairman
TED POE, Texas                       BRAD SHERMAN, California
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
BILL JOHNSON, Ohio                   GERALD E. CONNOLLY, Virginia
TIM GRIFFIN, Arkansas                BRIAN HIGGINS, New York
ANN MARIE BUERKLE, New York          ALLYSON SCHWARTZ, Pennsylvania
RENEE ELLMERS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Daniel Benjamin, Ambassador-at-Large, Coordinator 
  for Counterterrorism, U.S. Department of State.................     6

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on 
  Terrorism, Nonproliferation, and Trade: Prepared statement.....     3
The Honorable Daniel Benjamin: Prepared statement................    10

                                APPENDIX

Hearing notice...................................................    28
Hearing minutes..................................................    29
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    31


THE STATE DEPARTMENT'S COUNTERTERRORISM OFFICE: BUDGET, REORGANIZATION, 
                                POLICIES

                              ----------                              


                        THURSDAY, APRIL 14, 2011

              House of Representatives,    
                     Subcommittee on Terrorism,    
                           Nonproliferation, and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Edward R. Royce 
(chairman of the subcommittee) presiding.
    Mr. Royce. The hearing of the subcommittee will come to 
order.
    Today we are pleased to have with us Ambassador Daniel 
Benjamin, the State Department's top counterterrorism official. 
Welcome. This is an opportunity to review his office's budget, 
especially important given our dire financial straits.
    As part of a State Department reorganization, the 
administration would elevate the Ambassador's Office of the 
Coordinator for Counterterrorism to bureau status. Certainly, 
the counterterrorism portfolio is vital. Nevertheless, a 
certain skepticism is warranted in any reorganization in this 
town. What would the elevation have the office do better than 
it does today--or worse? Would the change portend a staffing 
and budget increase? Should an existing bureau be downgraded as 
an offset to this change? The administration requires 
congressional authorization for this. So we look to the 
Ambassador for answers on these questions.
    The State Department's request for counterterrorism 
activity is roughly $260 million. Its programs fund many small 
projects. For example, the administration is requesting 
$800,000 in antiterrorism assistance for Malaysia. The Obama 
administration stresses that counterterrorism must be 
strategic, attacking the political, social, economic and other 
ills abroad that the administration believes drive militant 
recruitment. But it is fair to ask whether these relatively 
small efforts can make a dent against these daunting 
challenges, and how do we measure their effectiveness?
    There are policy issues involved here, too. The Bush 
administration ill-advisedly removed North Korea from the state 
sponsors of terrorism list as part of a fruitless nuclear 
negotiation. Since its delisting, North Korea has proliferated 
to state sponsors of terrorism. And I have concerns about 
Sudan's likely delisting. We need to make sure its hands are 
clean.
    Subcommittee Member Poe has introduced legislation urging 
the Secretary of State to remove the People's Mujahadin 
Organization of Iran from the Foreign Terrorist Organization 
List, and we will be looking at that. This Iranian exile group 
lives in a precarious security situation, being harassed and 
assaulted by Iraqi troops.
    The Obama administration entered office committed to 
addressing terrorism differently. This was exemplified by its 
efforts to shutter Guantanamo Bay and bring 9/11 mastermind 
Khalid Sheikh Mohammed to New York for civilian trial. After 
bipartisan congressional action to prevent GITMO detainees from 
being brought to U.S. soil, most agree that GITMO will not be 
closed any time soon. And in a major reversal, Attorney General 
Eric Holder announced that Khalid Sheikh Mohammed would not be 
prosecuted in civilian courts but by a military commission at 
Guantanamo Bay. Good.
    The administration stressed that its predecessor's foreign 
policy drove anti-American militancy. But a 2009 USAID report 
notes the following. They say,

        ``We need to recognize that many violent extremists are 
        moved primarily by an unshakeable belief in the 
        superiority of certain values, by a perceived 
        obligation to carry out God's command, or by an abiding 
        commitment to destroy a system they view as evil or 
        oppressive. In other words, variables located in the 
        realm of identity, of faith, and spirituality matter a 
        great deal.''

    Those were the words of that USAID reported in 2009. So 
extremism is about much more than U.S. foreign policy.
    Finally, Department of Homeland Security Secretary Janet 
Napolitano recently claimed that security along our southern 
border is better now than it has ever been. Frankly, that is 
laughable, given its rampant violence. One of my constituents 
was just kidnapped. I do want to thank the Ambassador for his 
help on this because we were in consultation yesterday with his 
office on this. But at the same time, the State Department 
rescinded a travel warning that U.S. citizens could be targeted 
by drug cartels in three Mexican states. Well, he was abducted, 
it looks like from the information we received, by members of a 
drug cartel. So I wonder about this judgment.
    And there is growing concern over illegal southern border 
crossings by individuals from Somalia, from Pakistan, from 
Yemen, and other countries home to active terrorist 
organizations. We had better start treating border security as 
national security.
    I will now turn to the ranking member for his comments, Mr. 
Brad Sherman from Los Angeles, California.
    [The prepared statement of Mr. Royce follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Sherman. Thank you, Mr. Chairman, for holding these 
important hearings. The Obama administration's first 
Quadrennial Diplomacy and Development Review presented a plan 
for elevating the Office of Coordinator for Counterterrorism to 
a new Bureau of Counterterrorism, which would give our witness 
a major promotion. My hope is that if we were to take such 
step, that new bureau could combat the pernicious effect of 
what I call the Bureau of Kumbaya at the State Department. This 
bureau inspired us to take North Korea off the list on the 
theory that that would make them be nice. And the bureau also 
inspired us to put the MeK on the list on the theory that Iran 
would then ameliorate its proliferation and terrorism 
activities. One of the questions for our witness is: How is the 
that working out?
    This reorganization could give new heft to our efforts 
against terrorism, or it could be like rearranging the deck 
chairs on the Titanic; moving things around but not really 
accomplishing anything or, even worse, giving the appearance 
that we have done something when in fact we would continue to 
have the same policies that have been, I think, manifestly 
inappropriate over the last several years.
    There are increasing media reports that our efforts in 
Afghanistan include giving money to the Taliban; either to 
contractors who are actually a Taliban front or to contractors 
who find it convenient to pay off the Taliban and then brag 
about how successfully they carried out their development 
program. I look forward to seeing what the Ambassador's office 
can do to make sure that our antiterrorism efforts in 
Afghanistan are not undermined by those who just want to move 
the trucks as easily as possible, not looking at the real 
impact.
    In the early hours of Friday, last week, Iraqi forces 
entered Camp Ashraf, which houses members of the Iranian 
opposition group known as the MeK. Some 34 residents were 
killed, 300 wounded. In private discussions, the Iraqi 
Ambassador's office has said the blood is not on the hands of 
the Iraqi Government but is at least partially on the hands of 
the State Department because the MeK is listed as a terrorist 
group and accordingly Iraq doesn't feel that it has to respect 
the human rights of those in the camp.
    At a Foreign Affairs hearing on March 1, I pressed the 
Secretary of State to personally review the decision of the 
U.S. Court of Appeals for the D.C. Circuit, which ordered the 
State Department to review its decision with regard to keeping 
the MeK on the list. A similar list is maintained by Europe, 
and they have removed the MeK. This court decision is 
unprecedented. Courts loathe to involve themselves in our 
foreign policy. And so I believe that the office represented 
here is the only office to have its processes and decisions 
questioned by the second most important court in the United 
States.
    I would point out for the record the MEK's usefulness in 
reporting what was going on in Natanz back in 2002, and what is 
going on in TABA today.
    The State Department's job is not just putting people on 
the list, and I think the MeK was put on the list not on the 
merits but rather to placate Tehran, but also to decide who 
stays on the list.
    On the other hand, we have got to put the right entities on 
the list. Al-Qaeda in the Arabian Peninsula wasn't put on the 
list until days before their 2009 attempted attack. The 
Pakistani Taliban was not designated until months after the 
Times Square attack. The Afghan Taliban is still not on the 
list notwithstanding their brutal murders not only of American 
soldiers but American aid workers as well.
    Finally, with regard to Libya, when Deputy Secretary 
Steinberg was here I brought to his attention the fact that the 
forces in eastern Libya include those who have fought and 
killed Americans by fighting alongside al-Qaeda. I particularly 
brought to his attention Abdel-Hakim al-Hasidi, who brags of 
fighting us in both Pakistan and dispatching forces against us 
in Iraq. Yet there has been no serious attempt by the State 
Department to demand that the opposition council in Benghazi 
either turn these terrorists over to the United States or even 
disassociate themselves from these al-Qaeda-affiliated 
fighters.
    So I look forward to hearing our witness. I think one key 
question before our committee is whether we need a new bureau. 
And I hope very much if there is an opportunity to create a new 
bureau, that it will fight inside the State Department for a 
much stronger antiterrorism policy rather than simply being 
assigned by the State Department to come over to Congress and 
sing us lullabies and try to put us to sleep. I am sure that is 
not what the witness has in mind here today.
    Thank you very much.
    Mr. Royce. Mr. Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman. Just a few days ago, the 
Iraqi army charged into Camp Ashraf. Here we have on the top 
left-hand corner an Iraqi soldier coming in with an M-16, 
supported by an American-made Humvee. On the far top right-hand 
corner we have a member of Camp Ashraf being run over by one of 
those Humvees. And contrary to what the Iraqi Government says, 
that only three were killed, here are the victims of the 
assault and attack on Camp Ashraf. Thirty-three men and women. 
For some reason, the State Department sings the tune of the 
Iraqi Government and only says three were killed. Well, there 
are 30 more than three in these photographs. Real people, real 
victims of crime.
    I am very concerned, as my friend from California, Mr. 
Sherman is, about the people in Camp Ashraf. Every time we have 
a hearing on this issue, I ask the State Department Ambassador 
or whoever is present what is going to be done when America 
leaves. And we get the same song and dance: It will be fine. 
Well, it is not fine. The Iraqi Government wants these people 
removed. I think they are being supported by the Iranian 
Government. And we have an obligation in the United States to 
make sure these people are protected.
    One way to do that is to remove the MeK off of the list. 
Some of these people were members of the MeK. And I have been 
to every classified briefing I know of about the MeK and I am 
not convinced that they should stay on the Foreign Terrorist 
Organization List. I am waiting for the State Department to 
make its case or remove them. The State Department can't make 
their case and they won't remove them, in spite of a court 
order. I think that is appalling. And we have an obligation to 
make sure that something occurs to protect these people.
    The second note, I live in Texas. We have got a concern 
about the Los Zetas that come storming across the Texas border 
selling drugs. They are very violent, and I think that maybe we 
should continue putting them on the Foreign Terrorist 
Organization List.
    Thank you, Mr. Chairman. I will yield back.
    Mr. Royce. Thank you, Judge. Mr. Higgins of New York, I 
don't think you have an opening statement, do you?
    We will go to Ambassador Benjamin. Ambassador Daniel 
Benjamin is currently the Coordinator for Counterterrorism at 
the Department of State with the rank of Ambassador-at-Large. 
Prior to this, Ambassador Benjamin spent time at both the 
Brookings Institute as well as the Center for Strategic and 
International Studies. He served on the National Security 
Council during the Clinton administration, where he was the 
Director for Counterterrorism in the Office of Transnational 
Threats. Before entering government, Ambassador Benjamin worked 
as a foreign correspondent for Time Magazine and for the Wall 
Street Journal. He is an author of two books on terrorism. One 
is ``The Age of Sacred Terror'' and the other is ``The Next 
Attack: The Failure of the War on Terror and a Strategy for 
Getting It Right,'' which was a Washington Post Best Book of 
2005.
    So, Ambassador, welcome. Thank you again for the assistance 
with my constituent yesterday. I appreciate it.

   STATEMENT OF THE HONORABLE DANIEL BENJAMIN, AMBASSADOR-AT-
  LARGE, COORDINATOR FOR COUNTERTERRORISM, U.S. DEPARTMENT OF 
                             STATE

    Mr. Benjamin. Thank you very much, Chairman Royce, Ranking 
Member Sherman, distinguished members of the committee. I want 
to thank you for the opportunity to appear before you today. I 
have submitted testimony for the record that provides 
additional detail about the State Department's concept of 
strategic counterterrorism and our plans to work with Congress 
to transform my office, SCT, into a full-fledged bureau.
    Over the past 10 years, the United States has made great 
strides in tactical counterterrorism--taking individual 
terrorists off the streets, disrupting cells, and thwarting 
conspiracies. Yet if we look at the strategic level, we 
continue to see a strong flow of new recruits into many of the 
most dangerous terrorist organizations. A Bureau of 
Counterterrorism would continue to work aggressively with our 
interagency counterparts to stop imminent and developing 
threats, but it would also carry forward and expand the work 
underway to undermine the appeal of extremist ideologies and 
help many of our partners develop the tools to deal with the 
terrorist threats they face.
    Mr. Chairman, the wave of democratic demonstrations that 
began to sweep the Arab world at the end of 2010 hold both 
promise and peril. Because great numbers of citizens carried 
out their public demands for change without resort to violence 
or reference to al-Qaeda's incendiary world view, these events 
upended that group's longstanding claims that change would only 
come to the region through violence. At the same time, the 
political turmoil distracted security officials and led to the 
possibility that terrorist groups would exploit the new 
openness and find it easier to carry out conspiracies, a 
possibility with significant worrisome implications for states 
undergoing democratic transitions. But should the revolts 
result in democratically elected non-autocratic governments, 
al-Qaeda's single-minded focus on terrorism as an instrument of 
change could be severely delegitimized.
    I would like to review some key aspects of the current 
landscape, starting in South Asia, home to the group behind the 
September 11 attacks. Pakistan, particularly the Federally 
Administered Tribal Area region and the Khyber Pakhtunkhwa 
Province, continues to be used as a base for terrorist 
organizations operating in Pakistan and Afghanistan. While 
Pakistan has made progress on the counterterrorism front, 
specifically against Tehrik-e-Taliban Pakistan, the challenge 
remains to make these gains durable and sustainable. To this 
end, Pakistan must sustain its efforts to deny al-Qaeda safe 
haven in the tribal areas of western Pakistan. We continue to 
press Pakistan for increased action against Lashkar-e-Tayyiba 
and other terrorist groups.
    Though the al-Qaeda core has become weaker, it retains the 
capability to conduct regional and transnational attacks. In 
addition, the affiliates have grown stronger. Over the last 2 
years, we have seen the AQ threat become more distributed and 
geographically diversified in Yemen, East Africa, and the 
Sahel, for example. Terrorist violence from al-Qaeda in the 
Arabian Peninsula has been directed inside and outside of 
Yemen, threatening the security and the well-being of the 
Yemeni people, the broader Arabian Peninsula, and the United 
States.
    Al-Qaeda in Iraq in recent months has adapted to changing 
conditions, diminished capacity, and dismantled leadership to 
continue to carry out large-scale and coordinated attacks 
against government officials, security forces, and even 
civilians inside Iraq.
    In Somalia, al-Shabaab has conducted frequent attacks on 
government, military, and civilian targets inside Somalia, and 
the group's leadership remains actively interested in attacking 
regional, U.S., and Western interests. Last July, we saw al-
Shabaab demonstrate its ability and intent to carry out attacks 
outside of Somalia when it claimed responsibility for twin 
suicide bombings that killed 76 people in Kampala, Uganda 
during the World Cup.
    Al-Qaeda in the Islamic Maghreb is another threat. No group 
has made a bigger name for itself in the kidnapping for ransom 
business than AQIM, which relies on ransom payments to sustain 
and develop itself in the harsh Saharan environment. AQIM also 
conducts small-scale ambushes and attacks on security forces 
throughout the region.
    Let me now turn to the three pillars of our comprehensive 
strategic counterterrorism work that will address these 
challenges, and particularly those that arise in the new 
political circumstances we find ourselves in: Reducing 
recruitment, building partner capacity, and multilateral 
engagement.
    Our countering violent extremism work focuses on three main 
lines of effort that will reduce terrorist recruitment: 
Delegitimizing the violent extremist narrative in order to 
diminish its ``pull''; developing positive alternatives for 
youth vulnerable to radicalization to diminish the ``push'' 
effect of grievances and unmet expectations; and building 
partner capacity to carry out these activities.
    To counter AQ propaganda, we helped stand up the Center for 
Strategic Counterterrorism Communication, the CSCC, under the 
Bureau of Public Diplomacy and Public Affairs. The CSCC, 
working with the interagency, focuses not only on the violent 
actions and human costs of terrorism but also on positive 
narratives that can help dissuade those who may be susceptible 
to radicalization and recruitment by terrorism organizations.
    Successful CVE involves more than messaging, however, and 
we are developing programs that address the upstream factors of 
radicalization in communities susceptible to terrorist 
recruitment. To be effective, CVE work needs to be driven by 
local needs, informed by local knowledge, and responsive to the 
immediate concerns of the community.
    Micro strategies customized for specific communities and 
even neighborhoods owned and implemented by local civil society 
or government partners have a better chance at succeeding and 
enduring.
    Another central part of the Bureau's CVE effort is 
strengthening our partners' capacity and engagement in CVE 
work, propagating best practices and building an international 
consensus behind the efforts to delegitimize extremists and 
their ideologies. Ultimately, host governments are best 
positioned to execute truly sustainable CVE efforts.
    For several years now, we have supported local law 
enforcement efforts to engage youth through police-led sports 
programs and have worked with Morocco and Indonesia to counter 
the spread of violence and extremist ideology in prisons.
    The second pillar is building the capacity of our partners. 
Weak states serve as breeding grounds for terrorism and 
instability. When those states have the political will, we can 
help with specific capacity-building programs to build 
effective law enforcement capacity, fair and impartial justice, 
and the rule of good law and governance. One of our most 
effective capacity-building programs is the ATA, Antiterrorism 
Assistance Program, which in 2010 was supported by $215 million 
in NADR funds and which provided 350 courses, workshops, and 
technical consultations that trained almost 7,000 participants 
from 64 countries.
    The third pillar is multilateral engagement. Building new 
and strengthening existing partnerships is a cornerstone of our 
CT policy. The U.N. And other multilateral bodies have 
resources and expertise that we are working to leverage to 
reduce the capacity-building burden on the United States. We 
have been working on a new multilateral initiative, the Global 
Counterterrorism Forum, that we believe is not only an 
important step forward but would provide a reliable 
intergovernmental platform for policymakers and practitioners 
from different regions to engage on a sustained basis. I would 
be happy to brief you further in private on this important 
initiative, which has strong support from the White House and 
Secretary Clinton.
    Mr. Chairman, I think my time is out. There are a number of 
other things I could say. We will talk about designations and 
about the Homeland Security counterterrorism nexus. But at this 
point I think it is probably best to open for your questions.
    [The prepared statement of Mr. Benjamin follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Royce. Thank you. Thank you very much, Ambassador. Let 
me ask you a couple of questions, if I could, and then we will 
go to Mr. Sherman for his questioning.
    Your congressional budget justification mentions that your 
antiterrorism assistance programs underwent 23 assessments last 
year. Is the Department willing to share those evaluations with 
Congress? Could we take a look at those reports? We would like 
a better sense of the effectiveness of the programs, and this 
will give us an opportunity to go through the 23 assessments 
that were done.
    Mr. Benjamin. Quite frankly, Chairman, I am not sure about 
the legal status of those documents or their classification and 
the like, but we will take that back and get you an answer.
    Mr. Royce. You have got about 100 personnel right now. 
Would you anticipate that changing in terms of the upgrading of 
the status of the bureau?
    Mr. Benjamin. Mr. Chairman, the important thing about the 
change to a bureau is that it will, I think, ratify and 
rationalize what we are doing already. And while we would 
expect perhaps marginal changes in personnel, we do not expect 
any major changes; any significant ones.
    Mr. Royce. I see. Thank you. Let me ask another question. 
The Christmas Day bomber, as he is called, was in a situation 
where his father warned us about his thoughts. I believe that a 
State Department official had in fact classified him as a P3B, 
which is possibly inadmissible on terrorism grounds. Despite 
that classification, he got a visa.
    Even though we obviously dodged a bullet on his attempt 
that day, I assume the administration did a thorough post-
mortem on this. I was going to ask if your office was involved 
in that and what changes have been made should a situation like 
this arise again where a family member says that this 
individual is designated as possibly inadmissible on terrorism 
grounds, will he get that visa?
    Mr. Benjamin. Mr. Chairman, it is an excellent question. We 
are now in an era where our enemies are looking for people who 
have very limited derogatory information on them so that they 
can more effectively target us. This was obviously a very 
potent wake-up call and my office was integrally involved in 
the work in the interagency to ensure that we are protected 
against this tactic by the terrorists.
    We have issued new instructions to consular officers 
worldwide to use much more technically sophisticated search 
tools, advanced algorithms when researching watch-list 
nominations. We have now a much better system for informing the 
interagency about visa revocation processes. And we are working 
closely with the Terrorist Screening Center.
    We have done a lot to reevaluate the criteria upon which 
individuals are watch-listed and to ensure, for example, that 
the kind of information that you mentioned is mainstreamed into 
the pool of information that relates to potential watch listing 
much more efficiently and in a reliable manner.
    So we have taken a lot of different steps to do this. There 
have been a number of after-action reports that we would be 
happy to supply you with.
    Mr. Royce. I appreciate that.
    Mr. Benjamin. It has been a comprehensive effort.
    Mr. Royce. I think we can follow up. I appreciate that 
opportunity.
    Let me ask you another question. It has to do with al-
Shabaab, which has been really moving and evolving its 
capabilities. The group has attracted, oddly enough, a number 
of Somali-Americans who have lived in communities in this 
country and have gone to the Horn of Africa. Now there are 
reports about al-Shabaab exploiting our own southern border. 
Last year, Texas law enforcement was ordered to be on the 
lookout for a member of al-Shabaab. Recently, Ahmed Muhammed 
Dhakane appeared in Federal court, where he has been accused of 
attempting to smuggle several East Africans with terror links 
into this country.
    I mentioned my concern about Mexico in my opening statement 
about the nature of the situation on the border today. How are 
groups like al-Shabaab exploiting the controls the cartels have 
along that border to their advantage?
    Mr. Benjamin. Mr. Chairman, of course, border security is a 
primary national security concern. The State Department, 
together with the Department of Homeland Security, law 
enforcement and the like, are looking very closely to ensure 
that we have the best possible border security. I am aware of 
the reports that you are discussing regarding attempted Somali 
infiltration, or I should say al-Shabaab infiltration. I would 
say we are much more alert on the Southern border than we have 
hitherto been. I think if you want to know about the very 
specific things that are being done on the border, the 
questions are appropriately handled by DHS, which is 
responsible for that. But we are, certainly in the 
counterterrorism community, very much aware of the danger 
there.
    I would point out that we have seen a lot of violence in 
Mexico, and the law enforcement situation is a matter of 
concern. We, of course, are very supportive of what President 
Calderon has been doing to try to diminish the support. To this 
point we have not seen a significant linkup between the drug 
cartels and terrorist groups themselves. But, of course, there 
are human smuggling groups that make this a worrisome 
situation.
    Mr. Royce. I am aware of individuals, one in particular in 
a Federal penitentiary, who was in fact part of a terrorist 
group and made a payoff and got into the U.S. over the border 
after illegally obtaining a visa to travel to Mexico. He then 
payed to have himself smuggled in and then managed to find his 
confederates or his cell group in the United States. He is now 
serving time along with the other members of that cell group. 
In fact, the border has been breached. And this latest 
reporting on al-Shabaab members, especially the fact that our 
law enforcement on the border has been told to be on the 
lookout for these individuals who have already made the trek is 
disconcerting.
    I am going to go to Mr. Sherman for his questioning.
    Mr. Sherman. Thank you, Mr. Chairman. We have all seen the 
gruesome pictures of what the Afghan Taliban has done to Afghan 
girls, to aid workers. Why is the Afghan Taliban not on the 
terrorist list?
    Mr. Benjamin. Ranking Member Sherman, the Afghan Taliban is 
in fact listed under Executive Order 13-224.
    Mr. Sherman. I mean the terrorist list that you maintain.
    Mr. Benjamin. At the moment, there is a desire in the 
administration not to up-end President Karzai's reconciliation 
efforts by making it more difficult through a designation of 
the Taliban.
    Mr. Sherman. So when we find the terrorists not too 
objectionable--I mean, is this a principled list? The Afghan 
Taliban is certainly responsible for lots of terrorism. And yet 
you don't put them on the list that you maintain, not because 
they don't have lots of blood on their hands but because you 
hope to kiss and make up in the future.
    By that standard, since every terrorist group we hope 
redeems itself and renounces terrorism and does business with 
us, you would think that you would cancel all listings. You are 
not going to claim here that the Afghan Taliban doesn't have a 
lot more blood on its hands than some of the other groups that 
are listed. And when I say blood, I mean innocent blood through 
terrorist actions.
    Now, let's move on to the MeK. Your predecessor, Ambassador 
Dell Dailey, recommended that the MeK be removed from the list. 
Of course, he is not aware of information that has come out 
since 2008. But I arranged for this subcommittee to have a 
classified briefing. Your office was represented there but 
didn't speak. And none of the information presented at that 
classified briefing indicates that your decision to keep the 
MeK on the list is justified by information revealed to 
Congress but not available to Ambassador Dell Dailey.
    Is there secret information that neither Ambassador Dailey 
nor the members of this subcommittee are apprised of that 
justify keeping the MeK on the list?
    Mr. Benjamin. Well, first of all, listings have a certain 
amount of judgment involved in them. Secretary Rice, who was 
Ambassador Dailey's boss, disagreed with him, and that was why 
she agreed to the listing.
    Mr. Sherman. We already know that these are inherently 
political listings. North Korea is not on the list. The Afghan 
Taliban isn't on the list. It is whoever. But let me move on.
    The State Department has so far not completed the expedited 
review ordered by the court last summer. When will this 
committee be informed of your findings?
    Mr. Benjamin. You will be informed as soon as a decision is 
made.
    Mr. Sherman. When are you going to get the work done that 
the court directed you to get done quickly?
    Mr. Benjamin. In fact, we have just received new 
information from the MeK last week, and we are declassifying 
information to provide it to MeK counsel. So we are working as 
expeditiously as we can.
    Mr. Sherman. So it can take additional years?
    Mr. Benjamin. I don't have a timeline, sir.
    Mr. Sherman. Since you are the only State Department 
official ordered by the court to get your work done, I would 
hope that you could do that.
    I mentioned Mr. al-Hasidi, al-Qaeda terrorist and commander 
within the Libyan rebel forces. What steps has the State 
Department taken to demand that this gentleman be turned over 
to the United States or at least that best efforts be used to 
accomplish that goal or to take action against any of the other 
terrorists who are amongst the rebel forces?
    Mr. Benjamin. Mr. Sherman, the TNC has on a number of 
occasions, including in a public statement on March 30, 
announced its revulsion for terrorism and that it would not 
accept terrorists in its rank.
    Mr. Sherman. They are in the ranks. You can wave a press 
release in the air and say, look, the folks that are working 
with terrorists say that they are not working with terrorists. 
Next you will be telling me that you would like a press release 
from the Afghan Taliban. Other than self-serving press 
releases, again, what actions have we taken with regard to al-
Hasidi and the other al-Qaeda terrorists amongst the rebels, 
other than read with joy these self-serving press releases?
    Mr. Benjamin. Sir, I suggest that self-serving press 
releases may not be any less reliable than self-serving news 
stories. We don't in fact know that much about Mr. al-Hasidi's 
involvement based on our own information. As a former 
journalist, I can tell you that there are many differing kinds 
of information that make their way into print.
    Mr. Sherman. So it is your belief that there just aren't 
any terrorists operating in eastern Libya or at least no 
reliable information, and even the people who claim to be 
terrorists shouldn't be classified as terrorists.
    Let's talk about the IHH out of Turkey. This is a group 
that has supported Hamas, in violation of U.S. law. Has the 
United States expressed to the Turkish Government our 
opposition to any future flotilla, given the reality that 
Israel and Egypt have both established channels through which 
humanitarian assistance can be delivered to Gaza. Given the 
IHH's support for a U.S.-designated terrorist group, why has 
the IHH not been sanctioned by the United States and designated 
a foreign terrorist organization?
    Mr. Benjamin. On the first question, I can assure you that 
those messages have been sent loud and clear, including by me 
personally but by many other interlocutors. On the second 
issue, we do not comment on prospective designations. We are 
looking at the IHH very closely.
    Mr. Sherman. You don't comment in public or you don't 
comment to Congress, private or public?
    Mr. Benjamin. We do not comment at all.
    Mr. Sherman. Thank you for involving this subcommittee in 
your work. But I think that the Constitution calls for 
consultation. I realize that I haven't given you as long to 
answer each question as you would have liked. I invite you to 
provide longer answers for the record, and regret that the 
amount of time allocated is not as great as my interest in the 
subject. And I yield back.
    Mr. Royce. Thank you, Mr. Sherman. Why don't we go to 
Congresswoman Jackson Lee. I am pleased to welcome the 
Congresswoman today and would like to ask unanimous consent to 
allow her to ask a question. She is a nonmember of this 
subcommittee, but we are always pleased with her attendance. 
Your questions, please.
    Ms. Jackson Lee. Let me thank the chairman and the ranking 
member of this very, very important committee, and let me 
welcome the witness. We are near voting so let me try to be 
quick and acknowledge a number of individuals in the audience. 
They can acknowledge themselves. I know that the chairman has 
already established a protocol.
    I am appalled at what happened at Camp Ashraf with the 
allegations of murder and attack. My first question is: The 
U.S. military has completed an assessment of the carnage 
inflicted on the residents of Camp Ashraf. We understand that 
it is being either shared with the Iraqi Government but not 
shared with the public. When will it be shared? And if not, 
why? I am making a public request for that report to be made 
public.
    And let me, just before you answer a question, there are a 
number of women on this poster. But it is a shame this young 
lady that is only 28 was killed. This young lady that is only 
19 was killed. I am just really disturbed with what seems to be 
our Government's complacency with what is going on.
    If you could just answer that very quickly because my time 
is short, and I agree with the ranking member, we wish we could 
give you longer time.
    Mr. Benjamin. Of course, we all deplore the bloodshed, and 
there is nothing the United States has done that in any way 
condones or to my mind opens the way toward this bloodshed. The 
report that you are referring to, I think that we need to be 
clear. The U.S. military went in on a humanitarian mission. It 
has not filed any kind of evaluation or any report. U.N. 
Authorities have gone in. They have compiled a report. They 
have returned to Baghdad. We have not seen the report yet.
    Ms. Jackson Lee. Can I make an official request that if our 
Government does any report, that they will make that public. 
Secondarily, I think it is important for our Government to ask 
that the United Nation's report be made public. Would you 
convey that message or would you make that request?
    Mr. Benjamin. We will make that request.
    Ms. Jackson Lee. The human rights violations, I think, is 
most glaring, particularly with Iran in the backdrop. Can I 
find out why the Iraqi Government--I know the history; I am not 
trying to suggest there is not history--but why the continued 
human rights violation. People have died of various diseases. 
They couldn't get to hospitals. I want to make sure that I ask 
that question.
    And then the fact that we lost 34 individuals living in 
Camp Ashraf who fled because of persecution; 34 in essence were 
murdered by individuals that we now fund and seek a peaceful 
democracy in Iraq. Why are we continuing to support those who 
would intrude into that camp and generate this loss of life?
    Mr. Benjamin. Ma'am, I fully understand your concern and we 
in the U.S. Government are also eager to get to the bottom of 
what happened. But I have to tell you that we simply do not 
know the facts of what happened. And that is what we are 
waiting to hear from the U.N. And from other investigators. The 
government in Baghdad has committed itself to a full and fair 
investigation, and we are pushing them to do so.
    Mr. Sherman. Will the gentlelady yield?
    Ms. Jackson Lee. Yes.
    Mr. Sherman. Yes. I think the Iraqi Government has been 
clear; they killed people at Camp Ashraf to make Tehran happy. 
And they knew they could get away with it because the MeK is 
still on the U.S. list. And the U.S. would not interfere. And 
our keeping them on the list gives the political cover. That is 
why there are 34 people dead in Camp Ashraf.
    I yield back.
    Mr. Royce. I remind the members we have 3 minutes left 
until the hammer comes down on the vote.
    Ms. Jackson Lee. Let me just finish on this. The chairman 
is right on the vote. The ranking member is right. My plea is 
to take them off of the list, but to stand up and be heard on 
the violence and the killing, and the Iraqi Government cannot 
get one more dime from me and this government if they don't 
stop this kind of violence.
    Thank you, Mr. Chairman. I yield back.
    Mr. Royce. Thank you.
    Mr. Ambassador, thank you. We have got votes. We have got 
several issues to follow up with your office on. We will be 
giving close consideration to your office's status. We thank 
you for your testimony here today.
    This hearing is adjourned.
    [Whereupon, at 2:50 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Mi
                               nutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Co
                               nnolly 
                               statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
